                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION


Office of Inspector General—Office of Audit




                                              AUDIT OF THE MISSISSIPPI NATIONAL
                                              EMERGENCY GRANT




                                                               Date Issued: September 28, 2007
                                                               Report Number: 04-07-006-03-390
U.S. Department of Labor                               September 2007
Office of Inspector General                            Audit of Mississippi National
Office of Audit
                                                       Emergency Grant

BRIEFLY…
Highlights of Report Number 04-07-006-03-390, a        WHAT OIG FOUND
report to the Assistant Secretary for Employment and
Training.
                                                       Despite the extreme conditions in which the
                                                       MDES was operating and the overwhelming
WHY READ THE REPORT                                    need to provide immediate assistance to victims
                                                       of the hurricane, we found that, with the
On August 29, 2005, Hurricane Katrina came             exception of issues previously reported in an
ashore along the Louisiana, Mississippi, and           OIG Management Letter, tested NEG
Alabama coasts, causing estimated losses of            expenditures were allowable and reasonable,
more than $100 billion. In response, President         and program activities and outcomes were
Bush declared a major disaster for each of these       accurately reported, with few exceptions.
States under the authority of Robert T. Stafford
Disaster Relief and Emergency Assistance Act.          During fieldwork, we issued a management
To assist in the recovery efforts, the                 letter (Management Letter 04-06-008-03-390,
Employment and Training Administration (ETA)           dated September 28, 2006) to notify the
awarded the Mississippi Department of                  Employment and Training Administration (ETA)
Economic Security (MDES) a $50 million                 of an issue that warranted immediate corrective
National Emergency Grant (NEG). The purpose            actions. We found that five Workforce
of the NEG was to create temporary jobs to             Investment Network (WIN) Job Centers had
assist in disaster cleanup and restoration efforts,    entered into Individual Training Agreements
and to provide training opportunities that might       (ITAs) totaling $1.8 million to cover the
lead to permanent employment.                          educational expenses of 533 students who were
                                                       already attending college at the time that they
                                                       were enrolled under the NEG. This amount
                                                       accounted for about 60 percent of the total $3.1
WHY OIG DID THE AUDIT                                  million in ITAs awarded by these WIN Job
                                                       Centers.
The OIG conducted a performance audit to
ensure that MDES spent NEG funds in                    MDES has taken corrective actions to address
accordance with Federal requirements, and              the issues identified in the management letter.
reported NEG activities and outcomes
accurately. The audit covered grant                    WHAT OIG RECOMMENDED
expenditures and performance data from
September 1, 2005, through March 31, 2006.             The OIG made no recommendations.

READ THE FULL REPORT

To view the report, including the scope,
methodology, and full agency response, go to:

http://www.oig.dol.gov/public/reports/oa/2007/04
-07-006-03-390.pdf
Mississippi Department of Employment Security
National Emergency Grant Audit




Table of Contents
                                                                                                                   PAGE

EXECUTIVE SUMMARY ……………………………………………………………………...3

ASSISTANT INSPECTOR GENERAL’S REPORT………………………………………...5

RESULTS

    1. Tested National Emergency Grant (NEG) expenditures were allowable,
       reasonable, and allocable and accurately reported …………………………... 6

    2. MDES reported activities and outcomes accurately,
       with minor exceptions …....................................................…………….….…… 7

    3. Previously Reported NEG Issues ……………………………………………….... 7

APPENDICES ...............................................................................................................11

    A. Background …………………………………………………………………………..13

    B. Objectives, Scope, Methodology, and Criteria …………………………………15

    C. Acronyms and Abbreviations ……………………………………………………..19

    D. Agency Response .............................................................................................21




U.S. Department of Labor—Office of Inspector General                                                                       1
Report Number: 04-07-006-03-390
Mississippi Department of Employment Security
National Emergency Grant Audit




               THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                       U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-07-006-03-390
                                               Mississippi Department of Employment Security
                                                              National Emergency Grant Audit




Executive Summary
The Office of Inspector General (OIG) conducted a performance audit of the $50 million
National Emergency Grant (NEG) awarded to the Mississippi Department of
Employment Security (MDES) to assist individuals affected by Hurricane Katrina. The
period of performance under the grant was September 1, 2005, through June 30, 2007.
The audit covered grant expenditures and performance results from September 1, 2005
through March 31, 2006.

The initial purpose of the NEG awarded to MDES was to create temporary jobs to assist
in disaster cleanup and restoration. The grant was later modified to authorize
Mississippi to provide the training opportunities necessary to lead to permanent
employment.

The objectives of our audit were to answer the following questions:

       • Were the NEG expenditures allowable, reasonable, allocable, and reported
         accurately?

       • Were the NEG activities and outcomes reported accurately?

Results

On August 29, 2005, Hurricane Katrina made landfall along the Gulf Coast of the United
States. Hurricane Katrina was one of the deadliest and costliest natural disasters in
U. S. history. Despite the extreme conditions in which the MDES was operating and the
overwhelming need to provide immediate assistance to victims of the hurricane, we
found that, with the exception of the issues previously reported in an OIG Management
Letter, tested NEG expenditures were allowable and reasonable, and program activities
and outcomes were accurately reported, with few exceptions.

Overall, tested grant expenditures were allowable, reasonable, properly allocated and
reported accurately, with one exception of misclassification of cost.

MDES reported NEG activities and outcomes accurately; except that MDES
understated the total number of enrollments by 111 on its quarterly report dated March
31, 2006.

During fieldwork, we issued a management letter (Management Letter 04-06-008-03-
390, dated September 28, 2006) to notify the Employment and Training Administration
(ETA) of an issue that warranted immediate corrective actions. We found that 39 of a
sample of 125 NEG participants, or 31 percent, from one Mississippi Local Workforce
Investment Area were already attending college when they entered into Individual

U.S. Department of Labor—Office of Inspector General                                      3
Report Number: 04-07-006-03-390
Mississippi Department of Employment Security
National Emergency Grant Audit

Training Accounts (ITAs) funded by the NEG. Further review at five Workforce
Investment Network (WIN) Job Centers showed that the centers had entered into ITAs
totaling $1.8 million to cover the educational expenses of 533 students who were
already attending college at the time that they were enrolled under the NEG. This
amount accounted for about 60 percent of the total $3.1 million in ITAs awarded by
these WIN Job Centers.

Since the issuance of the management letter, MDES has taken corrective actions.
These corrective actions included discontinuing the practice of providing ITAs to
students already enrolled in college, instituting a policy of 100 percent State level review
of NEG participant files, hiring additional staff to assist with the reviews, and terminating
services to participants determined ineligible.

Given ETA's guidance regarding NEG grantees' initial determinations of eligibility to
participate in NEG programs, and its assurance that costs would not be disallowed for
individuals subsequently determined to be ineligible (Training and Employment
Guidance Letter No. 16-03, Change 3), we have not questioned the costs incurred by
Mississippi to provide ITAs for students already enrolled in college.


Auditee's Response

MDES officials stated that adjustments have been posted to the participant tracking
system to correct the underreporting of enrollment. Also, MDES officials stated that a
corrective action plan has been submitted to ETA outlining steps to be taken to address
eligibility concerns cited in the Management Letter.


OIG’s Conclusion

We considered the understatement of participant enrollments to be insignificant;
therefore, we did not recommend any corrective action, nor have we verified MDES'
reported adjustments. The resolution of issues raised in OIG's previously issued
management letter will be addressed through DOL's formal audit resolution process.




4                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 04-07-006-03-390
Mississippi Department of Employment Security
National Emergency Grant Audit




U.S. Department of Labor                        Office of Inspector General
                                                Washington, DC 20210




                         Assistant Inspector General’s Report


Ms. Emily Stover DeRocco
Assistant Secretary for Employment
 and Training
U. S. Department of Labor
200 Constitution Avenue, N.W.
Washington, D.C. 20210


We conducted a performance audit of a National Emergency Grant (NEG) awarded to
the Mississippi Department of Employment Security (grant number EM-15066-05-60).
The Employment and Training Administration (ETA) awarded the $50 million grant to
provide assistance to individuals affected by hurricanes Katrina and Rita during the
period September 1, 2005, through June 30, 2007. The funds provided short-term
disaster relief employment; adjustment assistance that included core, intensive and
training services; and supportive services as determined necessary.

Our audit covered the period September 1, 2005, through March 31, 2006. The
objectives of our audit were to answer the following questions:

       •   Were NEG expenditures allowable, reasonable, allocable, and reported
           accurately?

       •   Were NEG activities and outcomes reported accurately?

We conducted our audit in accordance with Government Auditing Standards for
performance audits. Our audit objectives, scope, methodology and criteria are detailed
in Appendix B.

With the exception of the issues previously reported in OIG’s Management Letter No.
04-06-008-03-390 and summarized in this document, tested NEG expenditures were
allowable and reasonable, and program activities and outcomes were reported
accurately, with few exceptions.



U.S. Department of Labor—Office of Inspector General                                   5
Report Number: 04-07-006-03-390
Mississippi Department of Employment Security
National Emergency Grant Audit



Objective 1: Were NEG Expenditures Allowable, Reasonable, Allocable, and
Reported Accurately?

Results

Overall, tested grant expenditures were allowable, reasonable, properly allocated and
reported accurately. However, we found one exception involving misclassification of
expenditures. In addition, due to the devastation caused by Hurricane Katrina, the
State was slow to implement its NEG program. This delay in implementation
contributed to limited spending during the first quarter of the program.

Between September 2005 and March 31, 2006, MDES reported total NEG expenditures
of $14,834,937. These expenditures were incurred by MDES and the four Local
Workforce Investment Areas (LWIA) in the State of Mississippi. To test NEG
expenditures, we reviewed selected transactions at the MDES administrative office,
Twin Districts Workforce Area (TDWA) and the South Central LWIA. The total
expenditures reported for the MDES administrative office and the two LWIAs were
$11,737,525. We tested 62 transactions with a value of $4,257,304, or 28 percent of
the total reported NEG expenditures.

Overall, tested expenditures were allowable, reasonable, properly allocated and
accurately reported. Transactions tested at TDWA involving $5,195 for postage were
misclassified as “support service cost” rather than “administrative cost." MDES officials
agreed that the postage expenses were misclassified and reportedly made adjustments
to reflect these expenses as administrative cost.




6                                       U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-07-006-03-390
Mississippi Department of Employment Security
National Emergency Grant Audit



Objective 2: Were NEG Activities and Outcomes Reported Accurately?

Results

MDES reported NEG activities and outcomes accurately, with minor exceptions. MDES
underreported the number of participants enrolled for the period ending March 31, 2006
by two percent. According to MDES officials, MDES' quarterly report to ETA reflected
participants enrolled through March 28, 2006, while its computerized data system
contained participants enrolled through March 31, 2006. Also, MDES reported that 191
of the 241 participants in our sample (79 percent) received training. We found that two
participants were incorrectly reported as having received training, and one individual
had not been reported as having participated in the public service employment program.
MDES' officials stated that they posted adjustments to correct these errors in the
participant tracking system.

Auditee's Response

MDES officials stated that adjustments have been posted to the participant tracking
system to correct the underreporting of enrolled participants

OIG’s Conclusion

We considered the understatement of participant enrollments to be insignificant; therefore, we
did not recommend any corrective action, nor have we verified MDES' reported adjustments.


Previously Reported Mississippi NEG Issues

During our audit, we issued a Management Letter (Report Number 04-06-008-03-390,
dated September 28, 2006) that identified an issue required immediate corrective action
by ETA. This issue involved LWIAs' mass enrollment of college students in the NEG
training program, and MDES' lack of plans to review NEG eligibility determinations.

On November 8, 2006, MDES officials provided their corrective action plan to ETA. The
ETA Grant Officer reviewed the plan and determined the audit report recommendations
to be resolved. Below is a brief summary of the Management Letter and related
resolution activity.

Finding 1: Mass Enrollment of College Students in the NEG Training Program

We found that 39 of a sample of 125 NEG participants, or 31 percent, from the TDWA
were already attending college when they entered into ITAs funded by the NEG.
Further review at five Workforce Investment Network (WIN) Job Centers showed that
the centers had entered into ITAs totaling $1.8 million to cover the educational


U.S. Department of Labor—Office of Inspector General                                             7
Report Number: 04-07-006-03-390
Mississippi Department of Employment Security
National Emergency Grant Audit

expenses of 533 students who were already attending college at the time that they were
enrolled under the NEG. This amount accounted for about 60 percent of the total $3.1
million in ITAs awarded by these WIN Job Centers. Also, the State accepted eligibility
self-certifications performed by the students, even though college transcripts/schedules
in the participant files included college enrollment dates that were both prior to and after
Hurricane Katrina.

In response to our draft management letter, the Assistant Secretary for Employment
and Training stated that she did not agree that just because someone is a college
student, he/she is "de facto" ineligible. The Assistant Secretary stated:

       . . . the Flexibility for Displaced Workers Act (P.L. 109-72, as amended)
       expanded the eligibility criteria contained in WIA section 173(d)(2). The
       Flexibility Act provided that those who were eligible to participate included
       those who were unemployed at the time of the disaster or were without an
       employment history. Training and Employment Guidance Letter (TEGL)
       16-03, Change 3, entitled "National Emergency Grant (NEG) Policy
       Guidance - Use of NEG Funds to Support Disaster Relief Employment
       and Training Assistance for Individuals Impacted by Hurricane Katrina,"
       issued October 14, 2005, included guidance regarding the expanded
       eligibility of individuals to participate in NEG projects in response to
       Katrina. . . . Therefore, based upon the information available at this time
       and pending further review, students who were without an employment
       history or unemployed at the time of the disaster may have been properly
       determined eligible by the grantee (or designee) to participate in the NEG
       disaster project.

TEGL No. 16-03, Change 3, Paragraph 5.b, "Expanded Eligibility for Disaster Relief
Employment," states the following:

       Documentation of Participant Eligibility. In view of the catastrophic nature
       of Hurricane Katrina, many individuals will not have the documentation
       necessary for a determination of eligibility to participate in the program.
       Other ways should be used to document eligibility such as self-certification
       or unemployment insurance (UI) or disaster unemployment assistance
       (DUA) information provided by partner programs. . . . The grantee must
       have systems in place to review eligibility determinations once the project
       has begun to operate more routinely and needed documentation becomes
       more readily available. If such systems are in place and the grantee
       subsequently identifies individuals who were not eligible to participate as a
       result of the review, costs incurred prior to the determination will not be
       disallowed.

We agree with ETA's statement that college students may be eligible for disaster
assistance. However, like all other participants, college students should not be enrolled



8                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 04-07-006-03-390
Mississippi Department of Employment Security
National Emergency Grant Audit

in the program without first determining that the students were unable to obtain or retain
employment, and without assessing the students' needs for training services.

Given ETA's guidance regarding NEG grantees' initial determinations of eligibility to
participate in NEG programs, and its assurance that costs would not be disallowed for
individuals subsequently determined to be ineligible, we have not questioned the costs
incurred by Mississippi to provide ITAs for students already enrolled in college.

The management letter recommended that the Assistant Secretary of Employment and
Training work with Mississippi to ensure that NEG participants, including college
students, met the eligibility criteria for training and funding be discontinued for ineligible
participants.

ETA agreed to follow-up on the eligibility requirements for college students to participate
in the NEG disaster project. Recommendations have been resolved based on
corrective actions taken by the agencies as follows:

   ● TDWA discontinued the practice of providing ITAs to students already enrolled in
     college.
   ● MDES ceased providing services to participants determined ineligible.
   ● MDES convened a work group to review current local area ITA policies and
     practices and to make recommendations.

After reviewing the actions taken by TDWA and MDES, the ETA Grant Officer will make
a determination as to whether these actions are adequate to correct the problems
identified.

Finding 2: No Plans to Review Eligibility Determinations

Mississippi had no system in place to determine whether information provided by
participants was factual, or to terminate assistance in the event that participants were
found to be ineligible. In addition, WIA requires that participants receive core and
intensive services before accessing training. If unable to obtain and retain employment
through such services, then they are eligible for training services. We found that core
and intensive services, and training placement, for college students were all performed
on the same day. This would not have afforded the students sufficient time to seek
employment prior to enrolling in NEG training.

We recommended that the Assistant Secretary of Employment and Training issue policy
guidance that would require adequate documentation of eligibility for college students
enrolled under the NEG grants based on self-certification; and require Mississippi to
review all NEG participant files.

ETA agreed to follow up in writing with the grantee to ensure that MDES had a system
in place to review eligibility determinations. Recently, MDES implemented several
procedures to ensure compliance with NEG eligibility criteria: 100 percent State level


U.S. Department of Labor—Office of Inspector General                                             9
Report Number: 04-07-006-03-390
Mississippi Department of Employment Security
National Emergency Grant Audit

review of NEG participant files; hiring of additional staff to assist with the review; limiting
NEG activities to six coastal counties; and issuing additional criteria for NEG file
maintenance.

After reviewing the actions taken by MDES, the ETA Grant Officer will make a
determination as to whether these actions are adequate to correct the problems
identified.

Auditee's Response

MDES stated that a corrective action plan has been submitted to ETA outlining steps to
be taken to address eligibility concerns cited in the Management Letter.

OIG’s Conclusion

The resolution of issues raised in OIG's previously issued management letter will be
addressed through DOL's formal audit resolution process.




Elliot P. Lewis
May 31, 2007




10                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 04-07-006-03-390
Mississippi Department of Employment Security
National Emergency Grant Audit




Appendices




U.S. Department of Labor—Office of Inspector General   11
Report Number: 04-07-006-03-390
Mississippi Department of Employment Security
National Emergency Grant Audit




               THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




12                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-07-006-03-390
Mississippi Department of Employment Security
National Emergency Grant Audit


                                                                             APPENDIX A
BACKGROUND

NEG Program

National Emergency Grants (NEG) were established under Title I, Subtitle D, Section
173 of the Workforce Investment Act (WIA). The NEGs are discretionary grants
awarded by the Secretary of Labor to provide time-limited funding assistance in
response to significant dislocation events. One of the eligible dislocation events is a
natural disaster as defined by the Robert T. Stafford Disaster Relief and Emergency
Assistance Act. Eligible entities may apply for natural disaster assistance once the
Federal Emergency Management Agency (FEMA) has declared an area eligible for
disaster-related public assistance.

Disaster relief grant recipients may provide some or all of the following services to
eligible individuals:

       • adjustment assistance that includes core, intensive and training services as
         authorized at WIA sections 134(d) and 173;

       • supportive services as determined necessary to help workers who require
         such assistance to participate in program activities; and

       • short-term disaster relief employment.

Hurricanes Katrina and Rita

On August 29, 2005, Hurricane Katrina came ashore along the Louisiana, Mississippi
and Alabama coasts, causing estimated losses of more than 100 billion dollars.
President Bush declared a major disaster for each of these states under the authority of
the Robert T. Stafford Disaster Relief and Emergency Assistance Act, 42 U.S.C.,
Sections 5121-5206.

The Mississippi Department of Employment Security (MDES) submitted an application
for Federal Assistance related to Hurricane Katrina on August 31, 2005, requesting 50
million dollars in Federal assistance. In their application, MDES officials estimated
10,000 participants would be trained, retrained and placed in the workforce at an
average cost of $3,000 per participant.

Congress passed the Flexibility for Displaced Workers Act, Public Law 109-72, on
September 23, 2005. This Act established special rules for the NEG related to
Hurricane Katrina. Some of these rules are:

       •   Grant funds provided to States that have submitted applications may be used
           for disaster relief employment or other assistance outside the disaster area.

U.S. Department of Labor—Office of Inspector General                                      13
Report Number: 04-07-006-03-390
Mississippi Department of Employment Security
National Emergency Grant Audit



       •   Expanded eligibility for disaster relief employment and other assistance to
           affected individuals. The expanded eligibility includes individuals who were
           affected by Hurricane Katrina, including those who have relocated from
           States in which a major disaster was declared and were:

           ¾ unemployed at the time of the disaster; or

           ¾ were without employment history.

       •   Temporary employment of eligible individuals in general public sector
           employment.

       •   Disaster relief employment may be extended beyond the usual 6-month
           maximum duration to an additional 6 months due to the extraordinary
           circumstances.

On September 23, 2005, Hurricane Rita came ashore along the border of Texas and
Louisiana, causing estimated losses of more than $10 billion. President Bush declared a
major disaster for each of these two states.

The Flexibility for Displaced Workers Act was amended by Public Law 109-148, Section
5012, dated December 30, 2005. The Act was amended by striking “Hurricane Katrina”
in each place it appears and inserting “hurricanes in the Gulf of Mexico in calendar year
2005”. This includes individuals affected by Hurricane Rita.




14                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-07-006-03-390
Mississippi Department of Employment Security
National Emergency Grant Audit


                                                                          APPENDIX B

OBJECTIVES, SCOPE, METHODOLOGY AND CRITERIA

Objectives

The objectives of our audit were to answer the following questions:

   1. Were the NEG expenditures allowable, reasonable, allocable, and reported
      accurately?

   2. Were the NEG activities and outcomes reported accurately?


Scope

We audited the $50 million NEG awarded to Mississippi Department of Employment
Security (MDES), Jackson, Mississippi to serve individuals affected by Hurricanes
Katrina and Rita. We selected and tested expenditure and performance data
cumulatively reported through March 31, 2006.

Our audit was conducted in accordance with Government Auditing Standards for
performance audits issued by the Comptroller General of the United States and
included such tests as we considered necessary to satisfy the audit objectives. A
performance audit requires obtaining an understanding of internal controls considered
significant to the audit objectives and testing compliance with significant laws,
regulations, and other compliance requirements. In order to plan our audit, we
considered whether internal controls significant to the audit were properly designed and
placed in operation. Fieldwork was conducted from March 20, 2006, through
May 31, 2007.

Methodology

To achieve our objectives we obtained an understanding of relevant internal controls
through inquiries with appropriate personnel and inspection of relevant documents,
policies and procedures at the State and local level. We performed work at three
locations:
       
        MDES administrative office in Jackson, Mississippi;
       • Twin Districts Local Workforce Investment Area in Hattiesburg, Mississippi;
       • South Central Mississippi Works in Jackson, Mississippi

MDES provided us with three ETA 9104 Quarterly Reports (September 2005,
December 2005, and March 31, 2006). The Quarterly Reports included financial and


U.S. Department of Labor—Office of Inspector General                                   15
Report Number: 04-07-006-03-390
Mississippi Department of Employment Security
National Emergency Grant Audit

performance data from the inception of the grant up to and including March 31, 2006.
We reconciled the ETA 9104 reports with financial data provided by MDES and LWIAs.

As of March 31, 2006, MDES reported total NEG expenditures of $14,834,937 from the
$50 million grant. Our sampling plan involved transaction testing at the Grantee (or
MDES) and at the Twin District LWIA and South Central LWIA. We tested 62
transactions totaling $4,257,304. At the Grantee level, we tested transactions from
three Fund Accounts (Nos. 7074, 7075, and 7076). The OIG Statistician randomly
selected two months out of five for transaction sampling, and directed testing of all
transactions greater than $500 for the selected LWIAs.

The Twin District Monthly Statement of Revenue and Expense contained 52 cost
categories in its universe of transactions and $8,770,801 of reported expenditures. We
combined five cost categories (participant wages, fringe benefits, support services, core
and intensive service, and Temp Staff Fee) under the Temp Job cost category. The
OIG Statistician randomly selected the months of December 2005 and February 2006
for transaction sampling.

The South Central Monthly Report Worksheets and General Ledger contained 110
transactions posted to 11 accounts. These transactions accounted for the $2,925,880
of expenditures reported to MDES. For our sampling plan, the OIG Statistician
randomly selected the months of November 2005 and February 2006 for transaction
sampling.

We reviewed invoices related to ITA and OJT transactions. We also performed testing
at both LWIAs to determine if NEG participants were eligible and if services and
outcomes were accurately reported. Our universe for Twin District LWIA (consisting of
12 WIN Centers) totaled 3,753 participants and the universe for South Central LWIA
(consisting of 11 WIN Centers) totaled 840 participants. Five WIN Centers were
randomly selected from each LWIA. Our sample contained 25 participant files from
each selected WIN Center with the exception of one Center which enrolled only 16
participants. In total, we reviewed 241 participant files.


Criteria

The principal criteria that governed the work performed were as follows:

       •   WIA Section 173, National Emergency Grants (NEG)

       •   WIA Section 195, General Program Requirements

       •   Public Law 109-72, Flexibility for Displaced Workers Act (provided special
           rules for NEG grants for Gulf of Mexico hurricanes in calendar year 2005)




16                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-07-006-03-390
Mississippi Department of Employment Security
National Emergency Grant Audit

       •   20 Code of Federal Regulations (CFR), Part 671, Federal Regulations
           pertaining to NEG

       •   29 CFR Part 97, Uniform Administrative Requirements for State/Local
           Governments and Indian Tribes

       •   Office of Management and Budget (OMB) Circular A-87, Cost Principles for
           State/Local Governments and Indian Tribes

       •   Training and Employment Guidance Letter (TEGL) NO. 5-05, Waiver Flexibility
           for Hurricane Katrina Recovery

       •   TEGL NO. 16-03, NEG Policy Guidance

       •   TEGL NO. 16-03, Change No. 3, NEG Policy Guidance. Use of NEG Funds to
           Support Disaster Relief Employment and Training Assistance for Individuals
           Impacted by Hurricane Katrina

       •   TEGL NO. 17-05, Common Measures Policy for the Employment and Training
           Administration’s (ETA) Performance Accountability System and Related
           Performance Issues

       •   NEG Application Procedures

       •   Quarterly Progress Report Definitions of Performance Factors




U.S. Department of Labor—Office of Inspector General                                     17
Report Number: 04-07-006-03-390
Mississippi Department of Employment Security
National Emergency Grant Audit




               THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-07-006-03-390
Mississippi Department of Employment Security
National Emergency Grant Audit


                                                          APPENDIX C


ACRONYMS AND ABBREVIATIONS


DOL       Department of Labor

ETA       Employment and Training Administration

FEMA      Federal Emergency Management Agency

ITA       Individual Training Account

LWIA      Local Workforce Investment Area

MDES      Mississippi Department of Employment Security

NEG       National Emergency Grant

OIG       Office of Inspector General

OJT       On the Job Training

PSE       Public Service Employment

SOF       Statement of Facts

TEGL      Training and Employment Guidance Letter

TDWA      Twin Districts Workforce Area




U.S. Department of Labor—Office of Inspector General              19
Report Number: 04-07-006-03-390
Mississippi Department of Employment Security
National Emergency Grant Audit




               THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




20                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-07-006-03-390
Mississippi Department of Employment Security
National Emergency Grant Audit


                                                       Appendix D
AUDITEE RESPONSE




U.S. Department of Labor—Office of Inspector General           21
Report Number: 04-07-006-03-390
Mississippi Department of Employment Security
National Emergency Grant Audit




22                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-07-006-03-390
Mississippi Department of Employment Security
National Emergency Grant Audit




U.S. Department of Labor—Office of Inspector General   23
Report Number: 04-07-006-03-390
Mississippi Department of Employment Security
National Emergency Grant Audit




24                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-07-006-03-390
